                               Report Template Update = 04-30-05_rev.13




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 MEDICARE REIMBURSEMENT FOR 

 NEW END STAGE RENAL DISEASE 

           DRUGS





                    Daniel R. Levinson

                     Inspector General 


                       March 2006

                     OEI-03-06-00200

                                                           Report Template Update = 04-30-05_rev.13




               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts management and program
evaluations (called inspections) that focus on issues of concern to HHS, Congress, and
the public. The findings and recommendations contained in the inspections generate
rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs. OEI also oversees State Medicaid Fraud
Control Units which investigate and prosecute fraud and patient abuse in the Medicaid
program.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                      S U M M A R Y          



                  OBJECTIVE
                  To determine the difference between the Medicare reimbursement
                  amount for a new separately billable end stage renal disease (ESRD)
                  drug and the acquisition cost of this drug for ESRD facilities in 2005, as
                  mandated by the Medicare Prescription Drug, Improvement, and
                  Modernization Act of 2003 (MMA).


                  BACKGROUND
                  The Centers for Medicare & Medicaid Services (CMS) reimburses all
                  ESRD facilities based on a prospective payment system known as the
                  composite rate. Facilities receive a fixed composite rate payment for
                  each dialysis treatment they provide. The composite rate does not
                  include many drugs (i.e., separately billable drugs) that may be part of
                  dialysis treatment.

                  In 2005, independent dialysis facilities (i.e., freestanding, nonhospital
                  dialysis facilities) were reimbursed for separately billable drugs using
                  two methods. For 10 high-dollar separately billable drugs,
                  reimbursement was based on the average acquisition cost of
                  independent facilities as calculated by CMS using 2003 cost data
                  presented in the Office of Inspector General’s (OIG) May 2004 report,
                  “Medicare Reimbursement for Existing End Stage Renal Disease Drugs”
                  (OEI-03-04-00120). All other separately billable drugs furnished by
                  independent dialysis facilities (with certain exceptions, such as
                  vaccines) were reimbursed at 106 percent of the drugs’ average sales
                  prices (ASP) as reported by manufacturers. In calendar year (CY) 2005,
                  Medicare reimbursed a total of $1.8 billion for separately billable drugs
                  furnished by independent dialysis facilities.

                  As of January 1, 2006, CMS began to reimburse all separately billable
                  drugs (again, with certain exceptions) at 106 percent of their ASP, the
                  same method used to reimburse for most other outpatient drugs under
                  Medicare Part B. According to the preamble to a proposed rule
                  published in the August 8, 2005, “Federal Register,” CMS stated that it
                  was inappropriate to use the older acquisition cost data provided by OIG
                  (updated by inflation) as a basis for reimbursement. In the proposed
                  rule, CMS also questioned the feasibility of continually acquiring
                  acquisition cost data over the long term.

                  We conducted this study based on a mandate set forth in section 623(c)
                  of the MMA. Pursuant to section 623(c), this study is to determine the

OEI-03-06-00200   MEDICARE REIMBURSEMENT   FOR   NEW ESRD DRUGS                          i
E X E C U T I V E              S U     M M A R Y


                   difference between the Medicare reimbursement amount for any new
                   separately billable ESRD drugs and the acquisition costs of these new
                   drugs for facilities. Section 623(c) of the MMA also directs OIG to
                   estimate the rate of growth of facilities’ expenditures for separately
                   billable ESRD drugs.

                   CMS has the authority to set CY 2007 reimbursement rates for ESRD
                   drugs billed by independent dialysis facilities. Section 1881(b)(12) of
                   the Social Security Act provides for payment neutrality based on
                   increases in the composite rate and reductions in drug reimbursement
                   amounts due to the OIG studies.
                   Section 623(c)(2)(B) of the MMA defines a “new drug” as a drug “for
                   which a billing code does not exist prior to January 1, 2004.” According
                   to our analysis, darbepoetin alfa accounted for 99.9 percent of the
                   Medicare reimbursement for all new ESRD drugs. We sought
                   acquisition cost data for darbepoetin alfa from the 55 facilities
                   responsible for 94 percent of Medicare reimbursement for the drug in
                   2005. Forty-six facilities (84 percent) responded to our request. We
                   compared CY 2005 acquisition costs for each of these facilities to the
                   Medicare reimbursement amounts in each quarter of that year. We also
                   calculated an average acquisition cost among all the responding
                   facilities, weighted by the number of units of darbepoetin alfa purchased
                   by each facility.

                   In our May 2004 study, we projected the future growth rate of
                   expenditures for separately billable ESRD drugs, as required by the
                   MMA. In calculating the future growth rate, we looked at past monthly
                   growth rates of expenditures for separately billable drugs over a 3-year
                   period. We could not and did not account for the potential effects of
                   changes to the drug reimbursement methodology. At the time of the
                   earlier study, most separately billable drugs were reimbursed by
                   Medicare using a completely different methodology (based on average
                   wholesale price) than the acquisition-cost based methods used by CMS
                   in 2005 and the ASP-based methods enacted by CMS in 2006. Because
                   of these recent major changes in the reimbursement methodology and
                   the resulting lack of comparable historical data, we determined it would
                   not be possible for us to accurately estimate future growth rates at this
                   time. Once complete data on 2005 and 2006 expenditures become
                   available, the effect of the changes to the reimbursement methodology
                   should be more evident. Any estimates made at that time would
                   therefore be more accurate.


 OEI-03-06-00200   MEDICARE REIMBURSEMENT   FOR   NEW ESRD DRUGS                         ii
E X E C U T I V E              S U     M M A R Y 




                   FINDING
                   In 2005, independent dialysis facilities were able to acquire
                   darbepoetin alfa at prices below the Medicare reimbursement
                   amount. In 2005, net acquisition costs for darbepoetin alfa among the
                   46 responding facilities were between $2.24 per microgram (mcg) and
                   $2.94 per mcg. On average, facilities paid $2.59 per mcg for darbepoetin
                   alfa in 2005, after all discounts and rebates were taken into account.
                   During this same time period, the Medicare reimbursement amount
                   ranged from a high of $3.54 per mcg in the first quarter of 2005 to a low
                   of $3.01 per mcg in the fourth quarter.


                   CONCLUSION
                   Section 623(c) of the MMA mandated that OIG complete a report that
                   determined the difference between the Medicare reimbursement
                   amounts for new separately billable ESRD drugs and the acquisition
                   costs of these drugs for facilities. CMS has the authority to use the data
                   presented in this report to set CY 2007 reimbursement amounts for the
                   new ESRD drugs under review.

                   This report presents the OIG’s findings about acquisition costs to
                   independent dialysis facilities for one new drug, darbepoetin alfa, in
                   2005. As described in the finding, the responding facilities acquired
                   darbepoetin alfa for less, and sometimes substantially less, than the
                   Medicare reimbursement amount in 2005.

                   We hope that this data is useful to CMS in its continued efforts to pay
                   appropriately for prescription drugs.




 OEI-03-06-00200   MEDICARE REIMBURSEMENT   FOR   NEW ESRD DRUGS                            iii
                                                 Report Template Update = 04-30-05_rev.13




Δ   T A B L E     O F      C O N T E N T S                 




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDING................................................... 6

                Facilities purchased drug at less than reimbursement amount.. . . 6 



         CONCLUSION ............................................. 7




         ACKNOWLEDGMENTS ..................................... 8

Δ   I N T R O D U C T I O N                             



                  OBJECTIVE
                  To determine the difference between the Medicare reimbursement
                  amount for a new separately billable end stage renal disease (ESRD)
                  drug and the acquisition cost of this drug for ESRD facilities in 2005, as
                  mandated by the Medicare Prescription Drug, Improvement, and
                  Modernization Act of 2003 (MMA).


                  BACKGROUND
                  Medicare Reimbursement for Dialysis Services
                  The Medicare program currently covers kidney dialysis for more than
                  300,000 enrollees under its ESRD benefit. In accordance with section
                  1881 of the Social Security Act, the Centers for Medicare & Medicaid
                  Services (CMS) reimburses dialysis facilities based on a prospective
                  payment system known as the composite rate. Facilities receive a fixed
                  composite rate payment for each dialysis treatment they provide. The
                  composite rate includes most items related to dialysis services,
                  including labor costs, related supplies, routine tests, and some drugs.
                  However, the composite rate does not include many drugs
                  (i.e., separately billable drugs) that may be part of dialysis treatment.
                  Medicare Reimbursement for Separately Billable ESRD Drugs
                  Medicare coverage of separately billable drugs in dialysis facilities is
                  limited to products that cannot be self-administered, i.e., drugs that are
                  administered by a health care professional.1 The exceptions to this
                  requirement are epoetin alfa and darbepoetin alfa, two drugs that
                  stimulate the production of red blood cells in patients with anemia.
                  Epoetin alfa and darbepoetin alfa furnished by dialysis facilities may be
                  covered even when they are self-administered by the patient.2
                  Independent Dialysis Facilities. In 2005, independent dialysis facilities
                  (i.e., freestanding, nonhospital dialysis facilities) were reimbursed for
                  separately billable drugs using two methods.3 For 10 high-dollar
                  separately billable drugs, reimbursement was based on the average
                  acquisition cost of independent facilities as calculated by CMS based on
                  2003 cost data presented in the Office of Inspector General’s (OIG) May


                    1 CMS “Provider Reimbursement Manual,” section 2711.2.
                    2 CMS “Medicare Benefit Policy Manual,” chapter 11, section 90.
                    3 42 CFR § 414.904(d)(2).




OEI-03-06-00200   MEDICARE REIMBURSEMENT   FOR   NEW ESRD DRUGS                          1
I N T R O D        U C T       I O N


                    2004 report, “Medicare Reimbursement for Existing End Stage Renal
                    Disease Drugs” (OEI-03-04-00120). All other drugs billed by
                    independent dialysis facilities were reimbursed at 106 percent of the
                    drugs’ average sales prices (ASP) as reported by manufacturers.4 In
                    calendar year (CY) 2005, Medicare reimbursed a total of $1.8 billion for
                    separately billable drugs furnished by independent dialysis facilities.

                    As of January 1, 2006, CMS began to reimburse all separately billable
                    ESRD drugs5 at 106 percent of their ASP, the same method used to
                    reimburse for other drugs under Medicare Part B.6,7 CMS stated that it
                    was inappropriate to use the older acquisition cost data provided by OIG
                    (updated by inflation) as a basis for reimbursement, and questioned the
                    feasibility of continually acquiring acquisition cost data over the long
                    term.8
                    Studies Mandated By the MMA
                    OIG conducted this study and the May 2004 study based on a mandate
                    set forth in the MMA. Section 623(c)(1) of the MMA states:

                           The Inspector General of the Department of Health and
                           Human Services shall conduct two studies with respect to
                           drugs and biologicals (including erythropoietin) furnished
                           to end-stage renal disease patients under the Medicare
                           program which are separately billable by end-stage renal
                           disease facilities.

                    Pursuant to section 623(c)(3) of the MMA, the studies are to determine
                    the difference between the Medicare reimbursement amount for
                    separately billable ESRD drugs and the acquisition costs of these drugs
                    for facilities. The studies must also estimate the growth rate of
                    facilities’ expenditures for these drugs. The first study, which focused


                      4 Exceptions to this payment methodology include certain vaccines, infusion drugs
                    administered through durable medical equipment, and blood products.
                      5 Exceptions to this payment methodology include certain vaccines, infusion drugs
                    administered through durable medical equipment, and blood products.
                      6 CMS Final Rule 1502-FC, as published in 70 Fed. Reg. 70,116, 70,224 (Nov. 21, 2005).
                      7 In 2005, hospital-based dialysis facilities were reimbursed for separately billable drugs
                    (with the exception of erythropoietin) at their cost. In 2006, separately billable drugs
                    furnished by hospital-based facilities are reimbursed at the same rate as independent
                    dialysis facilities, i.e., 106 percent of the ASP. Hospital-based facilities were not included in
                    this study because our review is based on acquisition costs and Medicare reimbursement in
                    2005.
                      8 70 Fed. Reg. 45,764, 45,845 (Aug. 8, 2005).




 OEI-03-06-00200    MEDICARE REIMBURSEMENT    FOR   NEW ESRD DRUGS                                                 2
   I N T R O D         U C T       I O N


                  on existing ESRD drugs, was completed in May 2004. This second
                  study, which focuses on new ESRD drugs, is to be completed by April 1,
                  2006. For the purposes of this study, section 623(c)(2)(B) of the MMA
                  defines a “new drug” as a drug “for which a billing code does not exist
                  prior to January 1, 2004.”

                  CMS used data from the first study to set CY 2005 reimbursement rates
                  for ESRD drugs billed by independent dialysis facilities and has the
                  authority do the same in CY 2007 for new drugs identified in this
                  second study. Section 1881(b)(12) of the Social Security Act provides for
                  payment neutrality based on increases in the composite rate to offset
                  any reductions in drug reimbursement amounts due to the OIG studies.


                  METHODOLOGY
                  Determining Drugs Under Review
                  We obtained from CMS a master list of billing codes, and then created a
                  subset of all new billing codes for prescription drugs that became
                  effective on or after January 1, 2004. We then obtained drug
                  reimbursement data for independent dialysis facilities in 2004 and 2005
                  from CMS’s National Claims History File. We determined that codes
                  for six new drugs furnished by independent dialysis facilities had been
                  reimbursed by Medicare in 2004 and 2005.

                  One drug, darbepoetin alfa, accounted for 99.9 percent of all
                  reimbursement for these six drug codes. Therefore, we limited our data
                  collection to this drug. Among all drugs billed by independent dialysis
                  facilities, darbepoetin alfa ranked in the top seven in terms of total
                  Medicare dollars during the previous 2 years, with reimbursement
                  exceeding $20 million in 2004 and $26 million in 2005.9 The other five
                  new drugs accounted for less than $20,000 each in reimbursement
                  during both years.
                  Medicare Reimbursement Amounts
                  We obtained the Medicare reimbursement amount for darbepoetin alfa
                  from CMS during each quarter of 2005.




                    9 Although the $26 million in reimbursement for darbepoetin alfa in 2005 is relatively
                  high, it accounts for less than 2 percent of total Medicare reimbursement for all ESRD
                  drugs billed by independent dialysis facilities. In comparison, Medicare Part B reimbursed
                  almost $800 million in 2005 for darbepoetin alfa provided in physician’s offices.



OEI-03-06-00200   MEDICARE REIMBURSEMENT   FOR   NEW ESRD DRUGS                                              3
I N T R O D        U C T      I O N 





                    Facility Acquisition Costs
                    Based on data from CMS’s National Claims History File, we determined
                    that only 157 of the approximately 3,900 independent dialysis facilities
                    were reimbursed by Medicare for darbepoetin alfa in 2005. Of these
                    157, 55 facilities accounted for 94 percent of Medicare reimbursement,
                    with each being reimbursed more than $100,000 for the drug that
                    year.10 These 55 facilities formed the basis of our sample.
                    We sent a request to the 55 sampled facilities asking them to provide
                    CY 2005 acquisition cost data for darbepoetin alfa. The requested
                    information was to include the total cost of the purchases, the number of
                    units purchased, and the amount of discounts and rebates received.
                    Forty-six facilities (84 percent) responded to our request. The 46
                    responding facilities accounted for 86 percent of the Medicare
                    reimbursement for darbepoetin alfa to the 55 facilities in the sample.11
                    We calculated a weighted annual average acquisition cost for
                    darbepoetin alfa among the 46 facilities by adding the total cost of
                    facility purchases (net of all rebates and discounts) in 2005 and dividing
                    the total by the number of units purchased that year. We also obtained
                    a list of any additional costs associated with acquiring separately
                    billable drugs. For this report, we did not verify any of the cost
                    information given by the providers.
                    Growth Rate of Expenditures
                    In our May 2004 study, we projected the future growth rate of
                    expenditures for separately billable ESRD drugs, as required by the
                    MMA. In calculating the future growth rate, we looked at past monthly
                    growth rates of expenditures for separately billable drugs over a 3-year
                    period. We could not and did not account for the potential effects of
                    changes to the drug reimbursement methodology. At the time of the
                    earlier study, most separately billable drugs were reimbursed by
                    Medicare using a completely different methodology (based on average

                       10 In our 2004 study, we had identified a small number of national chains that accounted

                    for a large majority of Medicare reimbursement for ESRD drugs. However, no facilities
                    owned by these large national chains were among the 55 with the most Medicare
                    reimbursement for darbepoetin alfa in 2005.
                      11 The nine facilities that did not respond to our request seemed similar to the facilities
                    that did. There were no distinguishing characteristics (e.g., membership in a chain, amount
                    of Medicare reimbursement, physical location) that would lead to the conclusion that the
                    nonrespondents would have different acquisition costs than the respondents.



 OEI-03-06-00200    MEDICARE REIMBURSEMENT   FOR   NEW ESRD DRUGS                                                   4
   I N T R O D        U C T       I O N


                  wholesale price) than the acquisition-cost based methods used by CMS
                  in 2005 and the ASP-based methods enacted by CMS in 2006. Because
                  of these recent major changes in the reimbursement methodology and
                  the resulting lack of comparable historical data, we determined it would
                  not be possible for us to accurately estimate future growth rates at this
                  time. Once complete data on 2005 and 2006 expenditures become
                  available, the effect of the changes to the reimbursement methodology
                  should be more evident. Any estimates made at that time would
                  therefore be more accurate.




OEI-03-06-00200   MEDICARE REIMBURSEMENT   FOR   NEW ESRD DRUGS                         5
 Δ        F I N D I N G                


                                                                In 2005, net acquisition costs
In 2005, independent dialysis facilities were able to          for darbepoetin alfa among the
       acquire darbepoetin alfa at prices below the            46 responding facilities were
                 Medicare reimbursement amount                 between $2.24 per microgram
                                                               (mcg) and $2.94 per mcg. On
                                                               average, facilities paid $2.59
                     per mcg for darbepoetin alfa in 2005, after all discounts and rebates
                     were taken into account. During this same time period, the Medicare
                     reimbursement amount ranged from a high of $3.54 per mcg in the first
                     quarter of 2005 to a low of $3.01 per mcg in the fourth quarter.12
                     According to the data provided by the facilities, the average discount/
                     rebate offered for darbepoetin alfa was 17.5 percent. Facility costs
                     before discounts or rebates were taken into account ranged from $2.24
                     to $4.36, with an average cost of $3.14 per mcg.

                     Only 10 of the 46 responding facilities estimated any additional costs
                     related to the acquisition of darbepoetin alfa. These additional costs
                     included patient response monitoring, storage, and waste, and were
                     between 0.4 percent and 2.5 percent of total costs for the drug.




                       12 In 2005, darbepoetin alfa was not one of the 10 ESRD drugs reimbursed based on the
                     OIG-reported average acquisition cost, and was therefore paid at 106 percent of the ASP.
                     The ASP is reported to CMS by manufacturers on a quarterly basis, and reimbursement
                     amounts may change each quarter based on any increases or decreases in the ASP.



   OEI-03-06-00200   MEDICARE REIMBURSEMENT   FOR   NEW ESRD DRUGS                                              6
Δ   C O N C L U S I O N                          





                  Section 623(c) of the MMA mandated that OIG complete a report that
                  determined the difference between the Medicare reimbursement
                  amounts for new separately billable ESRD drugs and the acquisition
                  costs of these drugs for facilities. CMS has the authority to use the data
                  presented in this report to set CY 2007 reimbursement amounts for the
                  new ESRD drugs under review.

                  This report presents the OIG’s findings about acquisition costs to
                  independent dialysis facilities for one new drug, darbepoetin alfa, in
                  2005. As described in the finding, the responding facilities acquired
                  darbepoetin alfa for less, and sometimes substantially less, than the
                  Medicare reimbursement amount in 2005.

                  We hope that this data is useful to CMS in its continued efforts to pay
                  appropriately for prescription drugs.




OEI-03-06-00200   MEDICARE REIMBURSEMENT   FOR   NEW ESRD DRUGS                            7
ΔA   A PC EK N N D OI W
     P                X
                        L AE D G M E N T S                         




                   This report was prepared under the direction of Robert A. Vito, Regional
                   Inspector General for Evaluation and Inspections in the Philadelphia
                   regional office. Other principal Office of Evaluation and Inspections
                   staff who contributed include:

                   Dave Tawes, Director, Prescription Drug Pricing Unit
                   Scott Hutchison, Program Analyst

                   Linda Moscoe, Technical Support Staff

                   Linda Boone Abbott, Program Specialist




 OEI-03-06-00200   MEDICARE REIMBURSEMENT   FOR   NEW ESRD DRUGS                       8
